              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




     Audit Report


  Management Controls over Operations
  of the Integrated Disposal Facility at
  the Hanford Site




OAS-M-08-04                           December 2007
                              Department of Energy
                                  VVashington, DC 20585
                                  December 18, 2 0 0 7



MEMORANDUM FOR THE CHIEF OPERATING OFFICER, OFFICE OF

                               ",. / l r &&~2.[.(~
                                         ,
FROM:                     &r"gr&.   Collard
                     .    ~ s s i s i a nInspector
                                         t         General
                             for NNSA and Energy Audits
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Management Controls
                          over Operations of the Integrated Disposal Facility at the
                          Hanford Site"

BACKGROUND

Pursuant to a June 2004 Record of Decision on the Hanford Site Solid Waste Program
Envivonmental Impact Statement, the Department of Energy committed to construct and
begin utilizing the Integrated Disposal Facility (IDF) as early as 2007. The Department's
Office of River Protection and its prime contractor CH2M HILL Hanford Group, Inc.
conlpleted the coilstructioil of the IDF in April 2006, at a cost of $23 million. The IDF is
Resource Conservation and Recovery Act compliant and is capable of disposing of low-
level radioactive waste and mixed low-level radioactive waste.

The Department planned to use IDF as the primary disposal site for Immobilized Low-
Activity Waste generated at the Hanford Site Waste Treatment Plant. Additionally, IDF
could be used to dispose of waste originating from various onsite and offsite sources,
including waste generated at the proposed Bulk Vitrification Pilot Plant at the Hanford
Site. Since its con~pletionin 2006, the Department had not disposed of any waste in IDF.
The Department plans to begin start-up operations of the facility in 2010 in preparation
for disposing ofwaste from the Bulk Vitrification Pilot Plant.

In 2002, the Office of Environmental Management implemented a new cleanup strategy
that emphasized risk-reduction through cost-effective solutions. Accordingly, we
conducted this audit to determine whether it is cost-effective to start up operations of the
IDF as planned.

RESULTS OF AUDIT

Start-up of operations at the IDF in 2010 would not be economical based on the currently
projected waste streams requiring disposal. Specifically, facilities which produce waste
streams designated for IDF have been delayed, including the:

        Waste Treatment Plant which will not produce waste until 201 7; and,

    a   Bulk Vitrification Pilot Plant which will not produce waste until at least 201 1.
Further, currently projected on-site and off-site waste volumes can be disposed of at other
existing Hanford Site Resource Conservation and Recovery Act compliant facilities until
201 7.
The Department had not re-evaluated its plans to detennine whether it would be cost-
effective to begin operating IDF in 2010. In particular, the Department had not
determined whether the start-up of IDF was warranted by resolving uncertainties
associated with waste volume forecasts, and by considering alternatives for managing
waste to be generated by the Bulk Vitrification Pilot Plant.

The Department could potentially save approximately $13 million by postponing
operations of the IDF until 2017 when the low-activity waste generated at the Waste
Treatment Plant will be available for disposal. To achieve savings, we recommended that
the Chief Operating Officer for Environmental Management re-evaluate current plans to
start up operations of the IDF in 2010.

hfiQJAGEMEPJT REACTION

Management concurred with our recommendation and indicated that it is currently
reassessing all projects, including the start-up of the IDF. However, managetnent noted
that clean-up operations at the Hanford Site operate within a regulatory environment and
any changes in the planned start-up of the IDF will need to be coordinated with the
regulators.

Attachment

cc:   Under Secretary of Energy
      Chief of Staff
      Assistant Secretary, Office of Environmental Management
      Team Leader, Audit Liaison Team, CF-1.2
      Manager, Office of River Protection
      Manager, Richland Operations Office
REPORT ON MANAGEMENT CONTROLS OVER OPERATIONS OF THE
INTEGRATED DISPOSAL FACILITY AT THE HANFORD SITE




TABLE OF
CONTENTS


  Integrated Disposal Facility Start-Up

  Details of Finding                               1

  Recommendation and Comments                      3


  Appendices

   1. Objective, Scope, and Methodology            4

   2. Management Comments                          6
INTEGRATED DISPOSAL FACILITY START-UP

Integrated Disposal   The Integrated Disposal Facility (IDF) may not be needed as a
Facility Operations   disposal facility until 2017, at the earliest. The IDF was
                      constructed to dispose of immobilized low-activity waste from the
                      Waste Treatment Plant and the Bulk Vitrification Pilot Plant, as
                      well as on-site and off-site low-level and mixed low-level sources.
                      However, generation of these waste streams has been delayed.
                      Specifically:

                          •   The Waste Treatment Plant that will produce the
                              immobilized low-activity waste for disposal had been
                              scheduled to begin operations in 2007, but currently is not
                              projected to be operational until 2017 or later.
                              Immobilized low-activity waste is the vitrified form of the
                              radioactive low-activity fraction of liquid wastes stored in
                              underground tanks at the Hanford Site.

                          •   The Department of Energy (Department) halted
                              development and construction of the Bulk Vitrification
                              Pilot Plant, in part, due to technical uncertainties about the
                              project. Since 2004, the project's start-up date has been
                              extended from 2005 to 2011. Even if the Bulk
                              Vitrification Pilot Plant is operational and generates
                              immobilized low-activity waste in 2011, disposal of the 50
                              waste boxes to be generated by the Bulk Vitrification Pilot
                              Plant would not justify the cost of starting up and
                              operating the IDF without other sources of waste. Rather,
                              it may be more cost effective to temporarily store the
                              waste boxes until additional waste is available from the
                              Waste Treatment Plant in 2017.

                          •   The off-site low-level waste to be disposed of at IDF has
                              also not materialized. The Department has not accepted
                              off-site shipments of mixed low-level waste at the Hanford
                              Site since mid 2004. The Department entered into a
                              Settlement Agreement with Washington State in January
                              2006, not to accept off-site waste until the Tank Closure
                              and Waste Management Environmental Impact Statement
                              for the Hanford Site, Richland, Washington is completed
                              and approved, currently scheduled for 2009. The
                              Department is currently preparing this Environmental
                              Impact Statement, in part, to reassess the effect of low-
                              level and mixed low-level waste at the Hanford Site. The
                              Hanford Site's life cycle low-level waste and mixed low-
                              level waste projections have decreased since 2003 due, in
                              part, to the above delays. Additionally, our analysis
                              showed that the existing Resource Conservation and
                              Recovery Act waste trenches at the Hanford Site have


Page 1                                                                Details of Finding
                 available capacity to dispose of the on-site and off-site
                 low-level waste and mixed low-level waste that are
                 currently projected in the Department's Solid Waste
                 Integrated Forecast Technical (SWIFT) database until
                 2017. Therefore, IDF may not have to be used until that
                 date.

         In commenting on a draft of this report, Environmental
         Management officials indicated that they did not have sufficient
         information to conclude that existing Hanford Site disposal
         facilities will have sufficient capacity to dispose of on-site and off-
         site waste until 2017. These officials stated that another database,
         the Waste Information Management System, provides more
         comprehensive and strategic information on future waste volumes
         than the SWIFT database. Nonetheless, these officials
         acknowledged this database contains very little waste forecast for
         shipment to the Hanford Site. This is because waste generation
         sites revised their disposition plans once the Hanford Site
         suspended the acceptance of off-site waste. Environmental
         Management officials also pointed out that possible suspension of
         waste disposal activities at other sites may necessitate the use of
         Hanford Site disposal facilities.

         Given the uncertainty of waste volumes, we could not validate the
         quantity and timing of additional waste streams that may be
         destined for IDF beyond currently forecasted amounts. As
         previously discussed, our analysis is based on available data which
         showed that existing Hanford Site Resource Conservation and
         Recovery Act disposal facilities have the capacity to dispose of
         currently projected on-site and off-site waste streams. Uncertainty
         about waste planned for disposition at the Hanford Site
         underscores the need to conduct a thorough analysis of projected
         waste streams and the most cost-effective approach for disposition
         before any plans to start IDF operations are initiated.

         Department officials also pointed out that temporary storage of
         Bulk Vitrification Pilot Plant waste and other changes to the
         planned operations of the IDF would require coordination with the
         regulators. Department officials noted that the June 2004 Record
         of Decision on the Hanford Site Solid Waste Program
         Environmental Impact Statement communicated a preference to
         use IDF rather than other Resource Conservation and Recovery
         Act-compliant disposal facilities for low-level radioactive waste
         and mixed low-level waste, with a clear plan to begin operations as
         early as 2007.




Page 2                                                     Details of Finding
                 We, nevertheless, noted that the Department has obtained regulator
                 approval in other instances for changes to Records of Decision that
                 affect waste disposal at the Hanford Site. For example, the
                 Department reached agreement in May 2007, with the U.S.
                 Environmental Protection Agency and Washington State to amend
                 a Record of Decision. This amendment enabled another Hanford
                 Site facility to dispose of additional quantities of mixed-low-level
                 waste in storage or waste that has been generated while supporting
                 the Hanford Site's cleanup mission.

Reassessing      Since IDF has been completed, the Department had not
Mission Needs    reassessed its plans to start up operations in 2010. In particular,
                 the Department had not determined whether the start-up of IDF
                 was warranted by resolving uncertainties associated with waste
                 volume forecasts, and by considering alternatives for managing
                 waste to be generated by the Bulk Vitrification Pilot Plant.
                 Specifically, the Department had not considered the use of interim
                 storage for the projected 50 boxes of waste to be generated by the
                 Bulk Vitrification Pilot Plant, although a Department official
                 acknowledged that there are temporary storage alternatives for the
                 waste generated by the Bulk Vitrification Pilot Plant.

Cost Impacts     In conducting our analysis, we determined that the Department
                 could potentially save approximately $13 million in operating costs
                 by delaying start-up of IDF. These savings could be achieved by
                 using existing disposal or temporary storage facilities for (1) on-
                 site and off-site low-level and mixed low-level waste and (2) waste
                 generated from the Bulk Vitrification Pilot Plant.

RECOMMENDATION   In order to institute a viable operating plan for the IDF, we
                 recommend that the Chief Operating Officer, Office of
                 Environmental Management re-evaluate the cost-effectiveness of
                 starting up operations in 2010, in part, by considering alternative
                 options for storing and disposing of projected low-level and mixed
                 low-level waste at the Hanford Site.

MANAGEMENT       Management concurred with our recommendation. In separate
AND AUDITOR      technical comments, management indicated that it is currently
COMMENTS         reassessing all projects, including the start-up of the IDF.
                 However, as noted previously, management indicated that any
                 changes in the planned start-up and operation of the IDF would
                 have to be coordinated with the regulators.
                 Management's comments are responsive to our recommendation.
                 We made several changes to the body of this report in response to
                 management's technical comments.



Page 3                                       Recommendation and Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether it is cost-
              effective to start up operations of the Integrated Disposal Facility
              (IDF) as planned.

SCOPE         The audit was performed from October 2006 to December 2007, at
              the Hanford Site in Richland, Washington. The scope of the audit
              covered the IDF.

METHODOLOGY   To accomplish the audit objective, we:

                  •   Obtained and reviewed laws, regulations, policies, and
                      procedures relevant to the Department of Energy's IDF;

                  •   Obtained and reviewed cost and schedule baselines for the
                      IDF;

                  •   Obtained and reviewed cost and schedule baselines for the
                      projects identified as producing waste forms to be
                      disposed of at the IDF, such as the Waste Treatment Plant
                      and the Bulk Vitrification Pilot Plant;

                  •   Reviewed findings from related prior audits and reviews;

                  •   Analyzed the CH2M HILL Hanford Group, Inc. contract
                      with the Office of River Protection; and,

                  •   Interviewed key personnel at the Office of River
                      Protection, the Richland Operations Office and CH2M
                      HILL Hanford Group, Inc., and the Office of Disposal
                      Operations.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our finding and
              conclusion based on our audit objective. The audit included tests
              of controls and compliance with laws and regulations related to the
              Office of River Protection's IDF at the Hanford Site. Because our
              review was limited, it would not necessarily have disclosed all
              internal control deficiencies that may have existed at the time of
              our audit. We examined the establishment of performance
              measures in accordance with the Government Performance and
              Results Act of 1993, as they related to the audit objective. We
              found that performance measures for the IDF had been established.
              Specifically, performance measures of $3 million were established



Page 4                                     Objective, Scope, and Methodology
Appendix 1

             for the completion of construction of the IDF in Fiscal Year 2006.
             We did not conduct a reliability assessment of computer-processed
             data because only a limited amount of computer-processed data
             was used during the audit.

             Management waived an exit conference.




Page 5                                  Objective, Scope, and Methodology
Appendix 2




Page 6       Management Comments
                                                                    IG Report No. OAS-M-08-04

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
